     DEPARTMENT OF HEALTH & HUMAN SERVICES                                OFFICE OF INSPECTOR GENERAL


                                                                          Office of Audit Services, Region IV
                                                                          61 Forsyth Street, SW, Suite 3T41
                                                                          Atlanta, GA 30303
August 26, 2010

Report Number: A-04-09-04033

Ms. Julie Feasel
Chief Executive Officer
Kindred Healthcare Bay Area - Tampa
4555 South Manhattan Avenue
Tampa, FL 33611

Dear Ms. Feasel:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Medicare Part A Bad Debts at Kindred Healthcare
– Bay Area for Fiscal Year Ended August 31, 2005. We will forward a copy of this report to the
HHS action official noted below. In addition, we will provide a copy to Kindred Healthcare Bay
Area – St. Petersburg.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please direct them to the HHS action
official. Please refer to report number A-04-09-04033 in all correspondence.

                                             Sincerely,



                                             /Peter J. Barbera/
                                             Regional Inspector General
                                               for Audit Services


Enclosure

HHS Action Official:

Ms. Nanette Foster Reilly
Consortium Administrator
Consortium for Financial Management & Fee for Service Operations
Centers for Medicare & Medicaid Services
601 East 12th Street, Room 235
Kansas City, MO 64106
     DEPARTMENT OF HEALTH & HUMAN SERVICES                                OFFICE OF INSPECTOR GENERAL


                                                                          Office of Audit Services, Region IV
                                                                          61 Forsyth Street, SW, Suite 3T41
                                                                          Atlanta, GA 30303
August 26, 2010

Report Number: A-04-09-04033

Ms. Pam Riter
Chief Executive Officer
Kindred Healthcare Bay Area – St. Petersburg
3030 6th Street South
St. Petersburg, FL 33705

Dear Ms. Riter:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Medicare Part A Bad Debts at Kindred Healthcare
– Bay Area for Fiscal Year Ended August 31, 2005. We will forward a copy of this report to the
HHS action official noted below. In addition, we will provide a copy to Kindred Healthcare Bay
Area – Tampa.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please direct them to the HHS action
official. Please refer to report number A-04-09-04033 in all correspondence.

                                             Sincerely,



                                             /Peter J. Barbera/
                                             Regional Inspector General
                                               for Audit Services


Enclosure

HHS Action Official:

Ms. Nanette Foster Reilly
Consortium Administrator
Consortium for Financial Management & Fee for Service Operations
Centers for Medicare & Medicaid Services
601 East 12th Street, Room 235
Kansas City, MO 64106
 Department of Health & Human Services
            OFFICE OF 

       INSPECTOR GENERAL 





REVIEW OF MEDICARE PART A BAD 

DEBTS AT KINDRED HEALTHCARE –

BAY AREA FOR FISCAL YEAR ENDED 

       AUGUST 31, 2005 





                       Daniel R. Levinson

                        Inspector General 


                          August 2010 

                         A-04-09-04033

                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices 



    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as 

 questionable, a recommendation for the disallowance of costs 

 incurred or claimed, and any other conclusions and 

 recommendations in this report represent the findings and 

 opinions of OAS. Authorized officials of the HHS operating 

 divisions will make final determination on these matters.

                                             INTRODUCTION 


BACKGROUND 


The Centers for Medicare & Medicaid Services (CMS) is the Federal agency within the U.S.
Department of Health & Human Services that administers the Medicare program and provides
Federal oversight of State Medicaid programs for every State in the nation.

Medicare Fiscal Intermediaries and Administrative Contractors

CMS contracts with Medicare fiscal intermediaries1 and administrative contractors to, among
other things, process and pay claims submitted by Medicare providers. Fiscal intermediary
and Medicare administrative contractor responsibilities include determining reimbursement
amounts, conducting reviews and audits, and safeguarding against fraud and abuse. Fiscal
intermediaries and Medicare administrative contractors use the Medicare cost report for final
settlement of Medicare reimbursement due to or from providers.

Medicare Bad Debt Policy

Section 1813 of the Social Security Act (42 U.S.C. § 1395e) mandates that beneficiaries share
in defraying the costs of inpatient care through various deductibles and coinsurance amounts.
This policy was adopted in 1966 when Medicare reimbursed hospitals retrospectively under
reasonable cost principles. Beginning in 1983, inpatient hospital care was reimbursed under a
prospective payment system (PPS). Under Medicare’s PPS, bad debts (defined below) are
pass-through costs and continue to be reimbursed under reasonable cost principles. Hospitals
claim reimbursement for these bad debts on their annual Medicare cost reports.

Medicare bad debts are amounts considered to be uncollectible from accounts and notes
receivable that were created or acquired in providing services for Medicare patients. The
Medicare program reimburses hospitals for bad debts associated with uncollectible Medicare
deductible and coinsurance amounts if the bad debts meet Medicare reimbursement criteria.
Federal regulations (42 CFR § 413.89(e)) provide that, to be eligible for reimbursement, the
hospital must show that: (1) the bad debts are related to Medicare covered services and
derived from unpaid deductible and coinsurance amounts, (2) reasonable collection efforts
were made, (3) the debts were actually uncollectible when claimed as worthless, and
(4) sound business judgment established there was no likelihood of recovery at any time in the
future. Furthermore, Federal regulations (42 CFR § 413.89(f)) require hospitals to reduce
their bad debts by the amount that they recover from previously written off bad debts.
Because Federal regulations (42 CFR § 413.89(h)) reduced reimbursement for Medicare bad
debts by 30 percent in fiscal year (FY) 2005, Medicare reimbursed 70 percent of the bad debts
claimed.

1
 Effective October 1, 2005, Congress amended the Social Security Act to require that CMS contract with
Medicare administrative contractors instead of fiscal intermediaries (Part A) and carriers (Part B) by October
2011. Medicare Prescription Drug, Improvement, and Modernization Act of 2003, P.L. No. 108-173 § 911,
Social Security Act, § 1816 and 1842, 42 U.S.C. §§ 1395h, 1395u and 1395kk-1.


                                                        1

Kindred Healthcare – Bay Area

The Kindred Healthcare - Bay Area (Kindred) is a 155-bed long-term acute care hospital with
locations in Tampa and St. Petersburg, Florida. A long-term acute care hospital specializes in
the treatment and rehabilitation of medically complex patients who require an extended stay
in a hospital setting. The hospital provides specialized services 24 hours per day, 7 days a
week. The patients are typically referred from intensive care units at acute care hospitals.
Some of the specialized services include life support (mechanical ventilation); physical,
speech, and occupational therapies; advanced wound care; and intravenous therapy. On
Kindred’s combined hospital cost report for September 1, 2004, through August 31, 2005,
Kindred claimed $1,661,902 ($1,163,331 reimbursement) for Medicare inpatient bad debts
(bad debts).

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether bad debts claimed on Kindred’s FY 2005 hospital
cost report were allowable under Medicare regulations and were reduced by bad debt
recoveries.

Scope

Kindred claimed $1,661,902 in bad debts on its FY 2005 hospital cost report. Our review was
limited to the 95 bad debts over $5,000 totaling $1,508,129. We also reviewed the accuracy
and completeness of bad debt recoveries reported by Kindred during FY 2005.

We limited our review of Kindred’s internal controls to those controls applicable to Kindred’s
managing and reporting of its bad debts.

We conducted our fieldwork from November 2008 through August 2009 at Kindred in both
Tampa and St. Petersburg, Florida.

Methodology

To accomplish our objective, we:

   	 reviewed applicable Medicare laws, regulations, and guidance;

   	 held discussions with CMS officials regarding Medicare bad debt program guidance;

   	 evaluated Kindred’s policies and procedures regarding the collection of deductibles
      and coinsurance amounts;

   	 obtained a list of bad debts claimed in FYs 2004 and 2005;


                                              2

   	 verified that Kindred claimed no duplicate bad debts on its FY 2005 cost report;

   	 validated the population of FY 2005 bad debt write offs;

   	 reviewed the patient accounting financial records, Medicare remittance documents,
      Medicaid remittance documents, and collection activity records for the 95 bad debts
      reviewed; and

   	 reviewed financial records for bad debt recoveries to determine the accuracy and
      completeness of bad debt recovery amounts used to reduce bad debts.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable
basis for our findings and conclusions based on our audit objective.

                                  RESULTS OF REVIEW

Kindred claimed bad debts on its FY 2005 hospital cost report that were allowable under
Medicare regulations and were reduced by bad debt recoveries. Therefore, we are making no
recommendations.

For all 95 of the bad debts reviewed: (1) the bad debts were related to Medicare covered
services and derived from unpaid deductible and coinsurance amounts, (2) Kindred made
reasonable collection efforts, (3) the debts were actually uncollectible when claimed as
worthless, and (4) sound business judgment established there was no likelihood of recovery at
any time in the future. In addition, Kindred reduced its bad debts by amounts recovered from
previously written off bad debts.




                                               3

